No. 19-460
IN THE

Supreme Court of the United States
___________

ALEXANDER Y. USENKO,
Derivatively on Behalf of the SunEdison
Semiconductor Ltd. Retirement Savings Plan
Petitioner,
v.
MEMC LLC, et al.,
___________

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit
___________
BRIEF IN OPPOSITION FOR RESPONDENTS
MEMC LLC, THE INVESTMENT COMMITTEE
OF THE SUNEDISON SEMICONDUCTOR RETIREMENT SAVINGS PLAN, STEVE EDENS,
HEMANT KAPADIA, BEN LLORICO, AND
CHENG YANG
___________
SARAH A. HEMMENDINGER
SIDLEY AUSTIN LLP
555 California Street
Suite 2000
San Francisco, CA 94104
(415) 772-1200

MARK B. BLOCKER*
CHRISTOPHER K. MEYER
SIDLEY AUSTIN LLP
One South Dearborn Street
Chicago, IL 60603
(312) 853-7000
mblocker@sidley.com

Counsel for Respondents MEMC LLC, The Investment
Committee of the SunEdison Semiconductor Retirement
Savings Plan, Steve Edens, Hemant Kapadia, Ben
Llorico, and Cheng Yang
November 6, 2019

*Counsel of Record

QUESTION PRESENTED
Whether the Eighth Circuit correctly held that an
ERISA imprudence claim that alleged that plan fiduciaries should have predicted the bankruptcy of an
unrelated company whose publicly traded stock was a
plan investment option, based solely on publicly
available information, was implausible in light of
Fifth Third Bancorp v. Dudenhoeffer, 134 S. Ct. 2459
(2014), which held that such claims are generally implausible, and where every court of appeals to judge
such claims has reached a similar conclusion.

(i)

ii
RULE 29.6 STATEMENT
Pursuant to Supreme Court Rule 29.6, Respondent
MEMC, LLC states that it is wholly-owned by GlobalWafers B.V. GlobalWafers B.V. is wholly-owned by
SunEdison Semiconductor PTE LTD, which is whollyowned by GlobalWafers Singapore PTE LTD. GlobalWafers Singapore PTE LTD is wholly-owned by
GlobalWafers Co., Ltd., which is publicly traded on
the Taipei Exchange.

TABLE OF CONTENTS

Page

QUESTION PRESENTED ...................................

i

RULE 29.6 STATEMENT ....................................

ii

TABLE OF AUTHORITIES .................................

v

INTRODUCTION .................................................

1

COUNTERSTATEMENT OF THE CASE ...........

2

A. Factual Background ..................................

2

B. Procedural Background ............................

3

REASONS FOR DENYING THE PETITION .....

6

I. THE PETITION SHOULD NOT BE HELD
PENDING JANDER BECAUSE THIS
CASE INVOLVES A DIFFERENT TYPE
OF CLAIM .....................................................

7

A. Dudenhoeffer Set Forth Separate Pleading Standards For Two Types Of ERISA
Imprudence Claims ...................................

7

1. Public Information Claims ...................

8

2. Nonpublic Information Claims.............

10

B. The Pleading Standard Applicable To
Public Information Claims Is Not At Issue In Jander ............................................

11

II. THE EIGHTH CIRCUIT’S OPINION
FAITHFULLY APPLIED THIS COURT’S
PRECEDENT AND IS IN ACCORD WITH
ALL OF THE OTHER COURTS OF APPEALS THAT HAVE ADDRESSED PUBLIC INFORMATION CLAIMS .....................

13

(iii)

iv
TABLE OF CONTENTS—continued
A. The Eighth Circuit Correctly Applied
Dudenhoeffer’s “Special Circumstances”
Requirement ..............................................

Page
13

B. Petitioner Cannot Evade Dudenhoeffer
By Characterizing His Claim As An “Excessive Risk” Claim ...................................

16

C. The Eighth Circuit Correctly Rejected
Petitioner’s Argument That Dudenhoeffer Can Be Evaded By Alleging A Failure
To Monitor .................................................

19

D. The Eighth Circuit Correctly Held That
Dudenhoeffer Applies To All Publicly
Traded Securities ......................................

20

CONCLUSION .....................................................

22

v
CASES

TABLE OF AUTHORITIES

Page

Amgen Inc. v. Harris, 136 S. Ct. 758
(2016) ........................................................ 10, 11
Coburn v. Evercore Tr. Co., N.A., 844 F.3d
965 (D.C. Cir. 2016) ........................... 11, 15, 18
Dudenhoeffer v. Fifth Third Bancorp., 692
F.3d 410 (6th Cir. 2012), vacated, 134 S.
Ct. 2459 (2014) ...........................................
17
Fifth Third Bancorp v. Dudenhoeffer, 134 S.
Ct. 2459 (2014) ....................................... passim
Graham v. Fearon, 721 F. App’x 429 (6th
Cir. 2018) ....................................................
12
Jander v. Ret. Plans Comm. of IBM, 910
F.3d 620 (2d Cir. 2018), cert. granted, No.
18-1165 (June 3, 2019) ...............................
11
Kopp v. Klein, 894 F.3d 214 (5th Cir.
2018) ............................................. 11, 15, 18, 20
Martone v. Robb, 902 F.3d 519 (5th Cir.
2018) ...........................................................
12
O’Day v. Chatila, 774 F. App’x 708 (2d Cir.
2019) ............................................. 11, 15, 18, 20
Schweitzer ex rel. Phillips 66 Sav. Plan v.
Inv. Comm. of Phillips 66 Sav. Plan, 312
F. Supp. 3d 608 (S.D. Tex. 2018), appeal
docketed, No. 18-20379 (5th Cir. June 12,
2018) ...........................................................
21
Rinehart v. Lehman Bros. Holdings Inc.,
817 F.3d 56 (2d Cir. 2016) ................. 11, 15, 18
Saumer v. Cliffs Nat. Res. Inc., 853 F.3d
855 (6th Cir. 2017) ....................... 11, 15, 18, 20
Singh v. RadioShack Corp., 882 F.3d 137
(5th Cir. 2018) .............................. 11, 15, 18, 20
Smith v. Delta Air Lines Inc., 619 F. App’x
874 (11th Cir. 2015) ........................... 11, 15, 20

vi
TABLE OF AUTHORITIES—continued

Page

Tibble v. Edison Int’l, 135 S. Ct. 1823
(2015) .......................................................... 6, 19
Wilson v. Fid. Mgmt. Tr. Co., 755 F. App’x
697 (9th Cir. 2019) ............................. 11, 15, 21
Yates v. Nichols, 286 F. Supp. 3d 854 (N.D.
Ohio 2017), appeal dismissed, No. 183075, 2018 WL 1888998 (6th Cir. Apr. 17,
2018) ...........................................................
21

INTRODUCTION
In the decision below, the Eighth Circuit held that
a claim alleging that ERISA plan fiduciaries should
have concluded, based solely on public information,
that a publicly traded stock was overvalued and destined for bankruptcy, was implausible and failed to
state a claim. The Eighth Circuit’s decision was consistent with this Court’s precedents and those of every other circuit that has considered such claims.
In Fifth Third Bancorp v. Dudenhoeffer, 134 S. Ct.
2459, 2471 (2014), this Court held that “allegations
that a fiduciary should have recognized from publicly
available information alone that the market was
over- or undervaluing the stock are implausible as a
general rule, at least in the absence of special circumstances.” As the petition tacitly acknowledges, since
Dudenhoeffer, every circuit that has addressed claims
based on public information has affirmed dismissal
and rejected the same arguments petitioner raised.
Pet. 19.
Not surprisingly, the petition does not claim that
there is a circuit split; it does not even ask this Court
to grant certiorari. Instead, the petition asks this
Court to (1) hold the petition pending the Court’s consideration of Retirement Plans Committee of IBM v.
Jander, No. 18-1165 (set for argument on November
6, 2019), and then (2) “dispose of [the petition] accordingly.” Pet. 23.
But there is no reason even to hold the petition, let
alone grant it, because Jander involves a fundamentally different type of claim governed by an entirely
different pleading standard. Dudenhoeffer recognized
that ERISA imprudence claims relating to publicly
traded stock can be based on either public infor-

2
mation or nonpublic information, and announced different pleading standards that apply to each type of
claim. The claim in Jander is based solely on nonpublic information; the claim here is based solely on public information. The question presented in Jander only concerns the “more harm than good” standard that
applies to nonpublic information claims; no question
is presented relating to the public information pleading standard. Thus, Jander will not have any impact
on the claim asserted here—this Court has already
held that public information claims are implausible
absent some special circumstance.
Because the Eighth Circuit and every other court of
appeals to have considered these claims has uniformly applied Dudenhoeffer’s public information pleading
standard to reject such claims, and because Jander
will have no impact on the consistent precedent for
public information claims, this Court should deny the
petition.
COUNTERSTATEMENT OF THE CASE
A. Factual Background
Petitioner is a former employee of SunEdison Semiconductor (“Semi”)—a company now known as
MEMC LLC—and a participant in the SunEdison
Semiconductor Retirement Savings Plan (the “Plan”)
Pet. App. 14a. The Plan is a 401(k) plan that provides
participants with an individual account and allows
them to direct the investment of their account among
a number of different investment options. Id. at 16a17a, ¶¶ 15-16.
Prior to May 2014, Semi was a wholly-owned subsidiary of SunEdison, Inc., and its employees participated in the 401(k) plan sponsored by SunEdison (the
“SunEdison Plan”). Pet. App. 16a, ¶ 14. One of the

3
investment options in the SunEdison Plan was a fund
that invested primarily in SunEdison stock, which
was publicly traded. Id.
In May 2014, Semi was spun off from SunEdison
and became a separate company. Id. As part of the
spin-off, the Semi Plan was created to provide benefits for the Semi employees, including employees who
previously worked for SunEdison and were participants in the SunEdison Plan. Id.; 8th Cir. App. 16374. The SunEdison Plan transferred assets held for
the Semi employees to the new Semi Plan, including
their investments in SunEdison stock. Pet. App. 16a,
¶ 14; 8th Cir. App. 163-74.
The Semi Plan offered a broad range of investment
options from which participants could choose to invest their funds; one of those investment options was
a fund that invested in SunEdison stock. 8th Cir.
App. 143-44, 167. Effective February 1, 2015 (before
the “Relevant Period” alleged in the operative complaint), the Semi Plan was amended to provide that
participants could retain their existing Plan holdings
in SunEdison stock, but could no longer make additional purchases. Pet. App. 17a, ¶ 18; 8th Cir. App.
153-55, 164. Plaintiff chose to retain his SunEdison
stock in his Semi Plan account.
In the late summer of 2015 and continuing into
2016, a confluence of market events sent SunEdison
into a downward spiral from which it ultimately
could not recover. On April 21, 2016, SunEdison filed
for bankruptcy to reorganize under Chapter 11. Pet.
App. 45a, ¶ 61.
B. Procedural Background
1. In 2017, petitioner filed this lawsuit against
Semi and the Plan’s investment committee in the
Eastern District of Missouri, purportedly proceeding

4
derivatively on behalf of the Plan. Plaintiff subsequently amended the complaint to add six individual
defendants.
The Amended Complaint asserted a single count alleging that respondents breached their duty of prudence under ERISA by allowing Semi Plan participants to continue to hold SunEdison stock. Petitioner
alleged that, during the Relevant Period (July 20,
2015 to April 21, 2016), Respondents knew or should
have known that SunEdison stock was overvalued.
The Amended Complaint alleged that “the value of
SunEdison stock . . . look[ed] grim,” that the stock
was too risky, and that the stock therefore was “not a
suitable and appropriate investment for the Plan.”
Pet. App. 36a, ¶ 53, 54a, ¶ 87. Petitioner claimed
that, at the start of the Relevant Period, respondents
should have predicted that SunEdison’s future bankruptcy was “inevitable,” based solely on reading publicly available information, such as internet articles
and SEC filings. Id. at 20a-47a, ¶¶ 29-64, 54a, ¶ 89.
Petitioner did not allege that respondents had any
nonpublic information relating to SunEdison and did
not assert a claim based on insider information.
Respondents moved to dismiss, arguing that the
Amended Complaint’s prudence claim was foreclosed
by Dudenhoeffer because it was based solely on public
information and did not allege any special circumstances. In opposing the motion, petitioner never disputed that the Amended Complaint failed to allege
special circumstances; instead, he took the position
that Dudenhoeffer did not apply and, therefore, allegations of special circumstances were not required.
See Plaintiff’s Memorandum of Law in Opposition to
Defendants’ Motion to Dismiss the Amended Complaint, Usenko v. SunEdison Semiconductor, LLC,

5
No. 4:17-cv-02227-AGF (E.D. Mo. Nov. 21, 2017),
ECF No. 37 at 8-11; Pet. App. 63a.
2. On February 21, 2018, the district court granted
respondents’ motion to dismiss with prejudice. Pet.
App. 58a-67a. The district court held that because petitioner’s prudence claim was based solely on public
information, under Dudenhoeffer, petitioner had to
allege a special circumstance affecting the reliability
of the market price of SunEdison stock, and petitioner admittedly had not even attempted to plead any
special circumstance. Id. at 63a-64a.
The district court rejected petitioner’s various attempts to distinguish Dudenhoeffer. First, it held that
Dudenhoeffer applies to all publicly traded securities,
not just employer securities. Pet. App. 64a. Second, it
held that Dudenhoeffer applies to prudence claims
regardless of whether they allege that a stock is overvalued or excessively risky. Id. at 64a-65a. Third, it
held that petitioner could not evade Dudenhoeffer by
alleging a failure to monitor the SunEdison stock. Id.
at 65a.
3. The Eighth Circuit affirmed. Applying Dudenhoeffer’s public information claim pleading standard,
the Eighth Circuit concluded that the Amended Complaint sought to fault respondents for failing to act on
publicly available information about SunEdison but
“contains no allegations that the circumstances indicated to the defendants that they could not rely on
the market’s valuation of SunEdison stock.” Pet. App.
8a. To the contrary, the allegations confirmed that
the market was reliable and functioning properly, because SunEdison’s stock price “did react to the company’s announcements and the financial press’s negative commentary as to the high debt load and liquidity problems, among other concerns.” Id. The Eighth
Circuit also held that Dudenhoeffer was controlling

6
regardless of whether SunEdison stock was an employer security, noting that Dudenhoeffer rejected the
contention that fiduciaries of employee stock ownership plans are subject to a different standard. Id. at
9a-10a.
The Eighth Circuit further held that this Court’s
decision in Tibble v. Edison International, 135 S. Ct.
1823, 1828 (2015)—acknowledging the unremarkable
principle that an ERISA fiduciary has a continuing
duty to monitor investments and remove imprudent
ones—did not exempt petitioner from meeting
Dudenhoeffer’s pleading requirements, which required a showing that the challenged investment was
imprudent in the first place. Pet. App. 9a.
REASONS FOR DENYING THE PETITION
The petition should not be held pending Jander, because Jander will have no impact on the pleading
standard that applies here. Jander does not involve a
claim based on public information, and no question is
presented relating to the pleading standard for such
claims. Instead, Jander involves an imprudence claim
based on nonpublic, insider information, which is
governed by an entirely different standard. That
standard is not implicated here, because petitioner
has not alleged that respondents possessed any inside
information regarding SunEdison.
Given the irrelevance of Jander, there is no reason
to grant the petition. The petition does not claim that
there is a circuit split; on the contrary, it concedes
that the courts of appeals’ decisions on public information claims are uniform. Pet. 19. As a result, the
petition boils down to a pure request for error correction.

7
But even that request has no merit. Petitioner portrays the “special circumstances” requirement as an
Eighth Circuit invention, but that requirement comes
verbatim from this Court’s decision in Dudenhoeffer—
a unanimous opinion issued only five years ago. Petitioner also complains that the courts of appeals applying the standard have unanimously rejected similar public information claims, but that unanimity is
hardly a basis for granting the petition. This Court
made clear that such claims would rarely if ever be
viable (“implausible as a general rule”), so it is hardly
surprising that every circuit since Dudenhoeffer has
rejected such claims. This Court said that the pleading standards were intended to weed out meritless
imprudence claims, such as ones that try to impose
liability on ERISA fiduciaries for failing to accurately
predict future stock price movements based on the
same information available to every investor in the
market. This is exactly what the Eighth Circuit did.
The petition should be denied.
I. THE PETITION SHOULD NOT BE HELD
PENDING JANDER BECAUSE THIS CASE
INVOLVES A DIFFERENT TYPE OF
CLAIM.
A. Dudenhoeffer Set Forth Separate Pleading Standards For Two Types Of ERISA
Imprudence Claims.
Petitioner’s request to hold the petition pending
Jander simply ignores the fact that Dudenhoeffer set
forth two separate pleading standards that apply to
two different types of ERISA imprudence claims. One
standard applies to claims alleging that fiduciaries
should have acted on the basis of public information,
and a separate standard applies to claims alleging
that fiduciaries should have acted on the basis of
nonpublic, i.e., inside, information.

8
1. Public Information Claims.
In a claim based on public information, a plaintiff
alleges—always with the benefit of hindsight—that
ERISA fiduciaries should have recognized from publicly available information that a publicly traded
stock offered as an investment option to plan participants was overvalued or too risky. Such claims are
predicated on the notion that, based on reviewing
public information, the fiduciaries should have predicted that the stock price would decline in the future, and acted on that prediction by liquidating the
plan’s stock holdings or halting additional purchases.
Dudenhoeffer, 134 S. Ct. at 2471.
This Court recognized the heads-I-win, tails-youlose nature of these claims. If a plan fiduciary fears
that continuing to invest in a publicly traded stock
might be imprudent, he may “find[] himself between
a rock and a hard place.” Id. at 2470. If the fiduciary
continues to allow the stock as an investment option
“and the stock goes down[,] he may be sued for acting
imprudently.” Id. But if the fiduciary halts the investment or forces participants to liquidate their
holdings and the stock price goes up, “he may be sued
for disobeying the plan documents,” id., or “for missing the opportunity to benefit from good performance,” id. (quoting White v. Marshall & Ilsley Corp.,
714 F.3d 980, 987 (7th Cir. 2013), abrogated by
Dudenhoeffer, 134 S. Ct. at 2467).
This Court also recognized that a fiduciary’s
“fail[ure] to outsmart” the market is “not a sound basis for imposing liability.” Id. at 2472 (alteration in
original) (quoting White, 714 F.3d at 992). To avoid
subjecting fiduciaries to lawsuits for failing to accurately predict future stock price movements, this
Court set forth a strict pleading standard designed to

9
“weed[] out meritless claims” through motions under
Rule 12. Id. at 2471.
In Dudenhoeffer, this Court held that imprudence
claims based solely on public information, like the
one here, “are implausible as a general rule, at least
in the absence of special circumstances.” Id. (emphasis added). This Court explained that “a fiduciary
usually ‘is not imprudent to assume that a major
stock market . . . provides the best estimate of the
value of the stocks traded on it that is available to
him.’” Id. at 2471-72 (omission in original) (quoting
Summers v. State St. Bank & Tr. Co., 453 F.3d 404,
408 (7th Cir. 2006)).
Dudenhoeffer embraced the efficient market theory,
which recognizes that the market processes information about publicly traded companies, and that information is reflected in the stock’s daily market
price. Thus, fiduciaries should not be expected to outperform the market “based solely on their analysis of
publicly available information.” Id. at 2471 (internal
quotation marks omitted). Accordingly, fiduciaries
“may, as a general matter . . . prudently rely on the
market price.” Id. Dudenhoeffer instructs that prudence claims based upon public information should be
dismissed, unless a plaintiff alleges some extraordinary “special circumstance.” Id. at 2471-72.
This Court made clear that “special circumstances”
would be rare. The special circumstances would have
to be ones “that would make reliance on the market’s
valuation imprudent.” Id. at 2472 (describing such a
circumstance as one “affecting the reliability of the
market price as ‘an unbiased assessment of the security’s value in light of all public information’”).

10
2. Nonpublic Information Claims.
The second type of ERISA imprudence claim is one
based on nonpublic information. In those cases, a
plaintiff alleges that plan fiduciaries, which may include senior company officers, possessed adverse material inside information suggesting that the company’s own stock (offered as a plan investment option)
was over-valued. Those claims assert that the plan
fiduciaries should have acted on the inside information, e.g., by disclosing the inside information, liquidating the plan’s stock holdings, or suspending future purchases. Id.
This Court recognized an obvious problem with
those types of insider information ERISA claims:
ERISA’s duty of prudence does not require or permit
a plan fiduciary to break the law, and a plan fiduciary in possession of material, nonpublic information
is bound by insider trading laws, so selling a plan’s
shares based on such information is not an option. Id.
at 2472-73. In addition, this Court recognized that
“stopping purchases—which the market might take
as a sign that insider fiduciaries viewed the employer’s stock as a bad investment—or publicly disclosing
negative information would do more harm than good
to the fund by causing a drop in the stock price and a
concomitant drop in the value of the stock already
held by the fund,” thus harming the very participants
the fiduciary is supposed to protect. Id. at 2473.
To address these concerns, Dudenhoeffer set forth a
separate pleading standard applicable to imprudence
claims based on nonpublic information, which this
Court reaffirmed in Amgen Inc. v. Harris, 136 S. Ct.
758 (2016) (per curiam). To assert a viable ERISA
imprudence claim based on nonpublic information, a
complaint must plausibly allege (1) “an alternative
action that the defendant could have taken that

11
would have been consistent with the securities laws,”
and (2) “that a prudent fiduciary in the same position
‘could not have concluded’ that the alternative action
‘would do more harm than good.’” Id. at 760 (quoting
Dudenhoeffer, 134 S. Ct. at 2473). This “more harm
than good” standard was intended to balance the
competing concerns a fiduciary faces.
B. The Pleading Standard Applicable To
Public Information Claims Is Not At Issue In Jander.
Since Dudenhoeffer, every court of appeals to consider the issue, including the Eighth Circuit here, has
heeded this Court’s warning that public information
claims are generally “implausible” and uniformly affirmed dismissals of ERISA imprudence claims based
on public information. See O’Day v. Chatila, 774 F.
App’x 708, 710-11 (2d Cir. 2019); Wilson v. Fid.
Mgmt. Tr. Co., 755 F. App’x 697, 698 (9th Cir. 2019);
Kopp v. Klein, 894 F.3d 214, 219-21 (5th Cir. 2018)
(per curiam); Singh v. RadioShack Corp., 882 F.3d
137, 144-47 (5th Cir. 2018) (per curiam); Saumer v.
Cliffs Nat. Res. Inc., 853 F.3d 855, 862-63 (6th Cir.
2017); Rinehart v. Lehman Bros. Holdings Inc., 817
F.3d 56, 65-67 (2d Cir. 2016) (per curiam); Coburn v.
Evercore Tr. Co., N.A., 844 F.3d 965, 969-72 (D.C. Cir.
2016); Smith v. Delta Air Lines Inc., 619 F. App’x 874,
876 (11th Cir. 2015) (per curiam).
Until recently, courts of appeals also had uniformly
affirmed dismissals of claims based on nonpublic information under the “more harm than good” standard. But in December 2018, the Second Circuit reversed a dismissal under that standard based on generalized allegations that disclosure of nonpublic information was inevitable and later disclosure would
do more harm than good. Jander v. Ret. Plans Comm.
of IBM, 910 F.3d 620, 631 (2d Cir. 2018), cert.

12
granted, No. 18-1165 (June 3, 2019). This holding
created a split with the Fifth and Sixth Circuits, both
of which had held that nearly identical allegations
were implausible. See Martone v. Robb, 902 F.3d 519,
526-27 (5th Cir. 2018); Graham v. Fearon, 721 F.
App’x 429, 436 (6th Cir. 2018).
This Court granted certiorari in Jander to address
the following question: “Whether [Dudenhoeffer’s]
‘more harm than good’ pleading standard can be satisfied by generalized allegations that the harm of an
inevitable disclosure of an alleged fraud generally increases over time.” Petition for a Writ of Certiorari at
i, Ret. Plans Comm. of IBM v. Jander, No. 18-1165
(U.S. Mar. 4, 2019).
Critically, in Jander, neither the petitioners, respondents, nor the Government (which has appeared
as amicus) have asked this Court to address, much
less revise, Dudenhoeffer’s pleading standard for
claims based on public information. That is because
Jander does not involve such a claim.
The petitioner here has not brought a claim based
on nonpublic information or alleged that respondents
possessed any inside information regarding SunEdison. Instead, petitioner’s claim is the generally implausible public information claim that is subject to
Dudenhoeffer’s “special circumstances” pleading
standard. As a result, Jander will not have any impact on this case.
Thus, the entire premise of petitioner’s request to
hold their petition pending this Court’s resolution of
Jander—that “the way this Court interprets Dudenhoeffer’s standards” in Jander “will affect the outcome of this case” (Pet. 23)—is incorrect. There is no
reason to hold the petition pending Jander, and

13
thereby leave the parties in limbo. The petition can
and should be disposed of now by denying it.
II. THE
EIGHTH
CIRCUIT’S
OPINION
FAITHFULLY APPLIED THIS COURT’S
PRECEDENT AND IS IN ACCORD WITH
ALL OF THE OTHER COURTS OF APPEALS THAT HAVE ADDRESSED PUBLIC
INFORMATION CLAIMS.
Once petitioner’s reliance on Jander is rejected,
there is nothing left of the petition. There is no circuit
split or any other certiorari-worthy issue. All of the
courts of appeals that have considered imprudence
claims based on public information—even the Second
Circuit, which decided Jander—have uniformly rejected the theories petitioner raised here. And petitioner’s arguments that Eighth Circuit’s opinion is
somehow inconsistent with Dudenhoeffer—a pure
plea for error correction—are meritless.
A. The Eighth Circuit Correctly Applied
Dudenhoeffer’s “Special Circumstances”
Requirement.
Petitioner first argues that Dudenhoeffer does not
require that a complaint allege any special circumstances to state a public information claim—he says
the Eighth Circuit “newly[] imposed” that requirement. Pet. 7-8. But the special circumstances requirement comes straight from Dudenhoeffer. This
Court said that if an imprudence claim is premised
solely on public information, the claim is “implausible
as a general rule,” unless a plaintiff can plausibly allege some sort of “special circumstance” that would
“affect[] the reliability of the market price as ‘an unbiased assessment of the security’s value in light of
all public information.’” Dudenhoeffer, 134 S. Ct. at
2471-72. In other words, absent special circumstanc-

14
es, public information claims are supposed to be
weeded out at the pleading stage.
Indeed, this case is a textbook example of a claim
that should be weeded out. The claim here boils down
to an argument that the plan fiduciaries—who no
longer worked at SunEdison and were in no better
position than anyone else in the market to evaluate
SunEdison’s future prospects—should have divined,
based entirely on the same public information available to every investor in the market, that a SunEdison
bankruptcy was a certainty. In other words, petitioner is claiming that plan fiduciaries should have outsmarted the market; they should have known that
the value of SunEdison stock was zero at times when
the market said otherwise. And petitioner insists that
plan fiduciaries should have used this crystal ball to
conduct a forced liquidation of participants’ holdings
of SunEdison stock.
While the complaint treats each adverse event reported to the public as somehow signaling that SunEdison’s bankruptcy several months later was inevitable, it relies entirely on hindsight. After all, if
bankruptcy was so certain and obvious, the market
would have incorporated that information and the
stock price would have been at or near zero. But
those were not the facts alleged—SunEdison stock
was trading at $31.66 at the start of the Relevant Period. Pet. App. 13a, ¶ 4. Petitioner is trying to fault
respondents for not outsmarting the market by predicting that SunEdison would go bankrupt.
In other words, petitioner encouraged the courts below to make the exact mistake this Court warned
about in Dudenhoeffer: turning ERISA fiduciaries into market soothsayers. The district court and the
Eighth Circuit properly refused to take the bait. The
Eighth Circuit recognized petitioner’s claim for what

15
it was: an attempt to fault respondents for failing to
predict the future based on nothing more than publicly available information. Pet. App. 8a. The Eighth
Circuit then considered whether the complaint alleged any special circumstances that would suggest
that the market was unreliable. Id. This is exactly
the analysis that Dudenhoeffer requires.
The Eighth Circuit is not alone in enforcing the
special circumstances requirement. Since Dudenhoeffer, every court of appeals that has addressed similar
public information claims—including the Second Circuit, which decided Jander—has affirmed dismissal
for failure to allege special circumstances. See O’Day,
774 F. App’x at 710-11; Wilson, 755 F. App’x at 698;
Singh, 882 F.3d at 146-47; Kopp, 894 F.3d at 220;
Rinehart, 817 F.3d at 66-67; Saumer, 853 F.3d at
862-63; Coburn, 844 F.3d at 969-70; Smith, 619 F.
App’x at 876.
The fact that no public information claim has survived in any appellate court since Dudenhoeffer is
neither surprising nor troubling. This Court made
clear that viable public information claims would be
rare by declaring them generally implausible. Petitioner suggests that successful claims should be
common by essentially arguing that fiduciaries
should be expected to outsmart the market. But
ERISA does not expect that of fiduciaries; that was
the very reason this Court said that public information claims are generally implausible. The unanimity among courts of appeals in rejecting public information claims shows the standard is working in
weeding out these meritless, implausible claims.
Petitioner next argues that the Eighth Circuit
“rais[ed] the pleading bar even higher” than Dudenhoeffer requires by holding that “publicly available
information can never satisfy” the special circum-

16
stances requirement, i.e., that “only insider information can satisfy it.” Pet. 8, 11. But the Eighth Circuit said no such thing. It simply notes that the complaint did not allege that the market was unreliable,
and that, if anything, the allegations suggest that the
market was reliable because it did react to the public
information on which petitioner relied. Pet. App. 8a.
There was no need for the Eighth Circuit to consider
what facts might constitute special circumstances because petitioner conceded that he had not even attempted to plead any. Id. at 63a.
Petitioner argues that requiring a plaintiff to allege
special circumstances is somehow inconsistent with
this Court’s observation in Dudenhoeffer that courts
should perform “careful, context-sensitive scrutiny of
a complaint’s allegations.” Pet. 9. But that argument
amounts to a claim that Dudenhoeffer was somehow
internally inconsistent, and no court has ever suggested that is the case.
Nobody disputes the unremarkable principle that
courts should carefully review a complaint when
evaluating a motion to dismiss. But as applied to
ERISA imprudence claims, that “careful, contextsensitive scrutiny” requires a court to evaluate (1)
whether a claim is premised exclusively on public information and, if so, (2) whether the complaint alleges special circumstances that would warrant a departure from the general rule of implausibility. The lower courts here considered and correctly resolved both
of those issues. This was an easy case.
B. Petitioner Cannot Evade Dudenhoeffer
By Characterizing His Claim As An “Excessive Risk” Claim.
Petitioner argues that Dudenhoeffer is inapplicable
by characterizing his claim as one alleging that the

17
stock was “excessively risky,” as opposed to overvalued. Pet. 16-20. According to petitioner, Dudenhoeffer’s “special circumstances” requirement applies only
where a plaintiff alleges “that an asset was overvalued” (Pet. 16), and not where a plaintiff alleges that a
stock is “excessively risky.” Id.
This argument fails for several reasons. For starters, petitioner has conceded that his claim is, ultimately, an overvaluation claim. The complaint alleges that the stock was overvalued and that a drop in
stock price was “inevitable.” Pet. App. 54a, ¶ 89. The
petition asserts that respondents “knew that SunEdison’s stock was careening toward zero” (Pet. 19), and
in his Eighth Circuit brief, petitioner conceded that
his claim is that “SunEdison stock’s ‘true value’ as a
long-term retirement asset was not the market price
assigned to it,” which is a classic overvaluation claim.
8th Cir. Pet. Br. at 48. Petitioner acknowledges that
overvaluation claims are subject to Dudenhoeffer’s
special circumstances requirement. Pet. 16.
And in any event, even if petitioner had cast his
complaint solely in terms of “excessive risk” instead
of overvaluation, that is a distinction without a difference. Dudenhoeffer itself addressed a claim that
the stock at issue was excessively risky. Before
Dudenhoeffer reached this Court, the Sixth Circuit
had held that the complaint stated a claim precisely
because it alleged that defendants “were aware of the
risks” that ultimately led to a fall in the stock’s share
price, and sufficiently alleged that “such risks made
[the stock] an imprudent investment.” Dudenhoeffer
v. Fifth Third Bancorp., 692 F.3d 410, 419-20 (6th
Cir. 2012) (emphasis added), vacated, 134 S. Ct. 2459
(2014). But this Court reversed that holding and vacated the Sixth Circuit opinion. In doing so, this
Court expressly noted the complaint’s allegation

18
“that . . . the fiduciaries knew or should have known
that Fifth Third’s stock was overvalued and excessively risky,” and in Section IV.A of Dudenhoeffer, this
Court again quoted the Sixth Circuit’s discussion of
the allegations about the “risks of such investments.”
Dudenhoeffer, 134 S. Ct. at 2464, 2472 (emphasis
added). If this Court did not intend for Dudenhoeffer’s
pleading standard to apply to excessive risk claims, it
would not have vacated the Sixth Circuit’s ruling in
that case.
Moreover, as petitioner concedes, there is no circuit
split on this issue. Pet. 19. All of the courts of appeals
to have considered this argument have held that any
claimed distinction between overvaluation and excessive risk is “illusory.” Rinehart, 817 F.3d at 65-66; see
also O’Day, 774 F. App’x at 710-11; Coburn, 844 F.3d
at 970-71; Singh, 882 F.3d at 145-46; Kopp, 894 F.3d
at 220; Saumer, 853 F.3d at 862. As these courts have
explained, applying Dudenhoeffer to all claims of imprudence, whether characterized as overvaluation
claims or excessive risk claims, “is consistent with the
efficient market hypothesis that risk is accounted for
in the market price of a security.” Rinehart, 817 F.3d
at 66. “[W]hen a stock becomes increasingly risky
(and hence, its potential for loss increases), its price
falls so as to maintain the expected market rate of
return.” Coburn, 844 F.3d at 972 n.5. Thus, Dudenhoeffer’s “market-price-reliance rule dispatched both
the value- and risk-based claims,” Saumer, 853 F.3d
at 862, and Dudenhoeffer “applies equally to . . . public-information claims premised on excessive risk.”
Singh, 882 F.3d at 146; Kopp, 894 F.3d at 220.

19
C. The Eighth Circuit Correctly Rejected
Petitioner’s Argument That Dudenhoeffer Can Be Evaded By Alleging A Failure
To Monitor.
Petitioner also attempted to evade Dudenhoeffer by
alleging that respondents breached a “continuing duty to monitor” the SunEdison stock, which “exists
separate and apart from the . . . duty to exercise prudence in selecting investments at the outset.” Pet.
App. 47a, ¶ 65. While the quoted language is from
Tibble, 135 S. Ct. at 1828, petitioner’s argument is
utterly inconsistent with Tibble and courts of appeals
have uniformly rejected it.
The unremarkable principle that fiduciaries have
an ongoing duty to monitor investments and remove
imprudent ones does not save petitioner’s claim from
dismissal. Even assuming arguendo that respondents
did not monitor the SunEdison stock, that fact alone
would not be sufficient to state a claim. Petitioner
would still have to plead that SunEdison stock was
imprudent and warranted removal if there had been
additional monitoring. But whether the complaint
plausibly alleged that SunEdison stock was imprudent is governed by Dudenhoeffer. Allegations that
there was a failure to monitor do not suffice on their
own to state a claim.
Indeed, Tibble recognizes that a failure to monitor
alone is insufficient to establish liability. In Tibble,
this Court held that a “plaintiff may allege that a fiduciary breached the duty of prudence by failing to
properly monitor investments and remove imprudent
ones.” Tibble, 135 S. Ct. at 1829 (emphasis added).
But whether a plaintiff has plausibly alleged that investment in a publicly traded stock was imprudent
based solely on publicly available information is governed by Dudenhoeffer.

20
This is why the courts of appeals have consistently
rejected a failure-to-monitor argument—because “a
fiduciary’s failure to investigate an investment decision alone is not sufficient to show that the decision
was not reasonable.” Saumer, 853 F.3d at 863 (citation omitted). Rather, “a plaintiff must show a causal
link between the failure to investigate and the harm
suffered by the plan,” which he cannot do if he fails to
allege anything “that would undermine reliance on
the market price.” Id. (citation omitted); see also
O’Day, 774 F. App’x at 711; Singh, 882 F.3d at 147;
Kopp, 894 F.3d at 221; Smith, 619 F. App’x at 87576.1
D. The Eighth Circuit Correctly Held That
Dudenhoeffer Applies To All Publicly
Traded Securities.
Although undeveloped in his petition (just as it was
undeveloped below), petitioner also argues that
Dudenhoeffer should not apply because SunEdison
stock was not “the employer’s stock” (i.e., after Semi
was spun off, SunEdison stock was not an employer
security with respect to Semi plan participants). Pet.
18. The Eighth Circuit correctly rejected this argument. In Dudenhoeffer, this Court held that the same
prudence standard applies to all ERISA fiduciaries,
and nothing in Dudenhoeffer suggests that its holding
is limited to employer securities. In fact, in Dudenhoeffer, this Court specifically overruled numerous
circuit court decisions holding that fiduciaries overseeing employer securities are governed by a different

1 Petitioner asserts that the D.C. Circuit suggested that
Dudenhoeffer does not apply to a failure-to-monitor claim. Pet.
15. In fact, petitioner cites a concurring opinion in Coburn, not
the opinion of the entire court. Every court of appeals that has
considered this issue has agreed with the Eighth Circuit.

21
standard than other fiduciaries, which petitioner conceded below. 8th Cir. Pet. Br. at 31. And this Court
could not have been clearer that the general implausibility of public information claims applies “where a
stock is publicly traded,” regardless of the type of security at issue. Dudenhoeffer, 134 S. Ct. at 2471.
Applying this standard to all publicly traded securities makes sense because this Court’s holding in
Dudenhoeffer is premised on the efficiency of the public markets. Id. at 2471-72. The efficient market theory does not depend on whether or not a security is affiliated with a participant’s current employer, so it
would make no sense for the application of Dudenhoeffer to turn on that distinction.
And there is no circuit split on the point either:
both the Eighth and Ninth Circuits agree that
Dudenhoeffer applies to non-employer securities. Pet.
App. 9a-10a; Wilson, 755 F. App’x at 698; see also
Schweitzer ex rel. Phillips 66 Sav. Plan v. Inv. Comm.
of Phillips 66 Sav. Plan, 312 F. Supp. 3d 608, 620-22
(S.D. Tex. 2018), appeal docketed, No. 18-20379 (5th
Cir. June 12, 2018); Yates v. Nichols, 286 F. Supp. 3d
854, 860 (N.D. Ohio 2017), appeal dismissed, No. 183075, 2018 WL 1888998 (6th Cir. Apr. 17, 2018).

22
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be denied, and the Court should decline petitioner’s invitation to hold this petition pending the outcome in Jander.
Respectfully submitted,
SARAH A. HEMMENDINGER
SIDLEY AUSTIN LLP
555 California Street
Suite 2000
San Francisco, CA 94104
(415) 772-1200

MARK B. BLOCKER*
CHRISTOPHER K. MEYER
SIDLEY AUSTIN LLP
One South Dearborn Street
Chicago, IL 60603
(312) 853-7000
mblocker@sidley.com

Counsel for Respondents MEMC LLC, The Investment
Committee of the SunEdison Semiconductor Retirement
Savings Plan, Steve Edens, Hemant Kapadia, Ben
Llorico, and Cheng Yang
November 6, 2019

*Counsel of Record

